          $jj
          z
                                                                              NATIONAL SCIENCE FOUNDATION
                                                                               OFFICE OF INSPECTOR GENERAL
                                                                                 OFFICE OF INVESTIGATIONS
           4
              0                                                           CLOSEOUT MEMORANDUM
               Q*0 a+O
         Case Number: 1-06-12-0046                                                                                   Page 1 of 1



                  This investigation was opened pursuant to a proactive review of awards which had funds drawn-
                  down after a No-Cost Extension had been denied. A review of NSF databases revealed an
                  award' for which funds had been drawn-down after receiving a denial for a No-Cost Extension.

                  Investigation, which included a review of the financial records, and a site visit to the awardee2,
                  revealed that there were expenditures3 incurred after the expiration date of the award.

                  The awardee returned a check to NSF for all of the expenditures incurred after the expiration date
                  of the award, in addition to making changes to their award administration processes in order to
                  prevent future occurrences of this nature.

                  In light of the above, no further investigative effort is necessary in this matter.

                  Accordingly, this case is closed.




        NSF 01G Form 2 ( 1 1/02)
.                                                                                                   . .                                           .       ....
    .
                                   .   . ..   *
                                                  .
                                                      .   .   .   .   .   .                .   ,.            I,?',    :
                                                                                                                          ..... .       . .. .. .
                                                                                                                                    ..i'.
                                                                                                                                                      .          .
